Audit Report




OIG-11-066
SAFETY AND SOUNDNESS: Material Loss Review of Guaranty
Bank
April 29, 2011




Office of
Inspector General
Department of the Treasury
Contents


Audit Report................................................................................................. 1

    Causes of Guaranty’s Failure ........................................................................ 3

    OTS’s Supervision of Guaranty .....................................................................         5
      OTS Did Not Question Guaranty’s Overreliance on Credit Ratings to
         Assess Its Nonagency MBS Portfolio Risk..............................................                  7
      OTS Took Enforcement Action and PCA as Guaranty’s Financial Condition
         Deteriorated ......................................................................................   8
      OTS’s Internal Failed Bank Review ............................................................           9

    Recommendations ....................................................................................... 10

Appendices

    Appendix     1:     Objectives, Scope, and Methodology ......................................              13
    Appendix     2:     Background..........................................................................   15
    Appendix     3:     Management Response .........................................................          18
    Appendix     4:     Major Contributors to This Report ...........................................          19
    Appendix     5:     Report Distribution……………………………………………………….                                              20

Abbreviations

    ARM                 adjustable rate mortgage
    C&D order           cease and desist order
    FDIC                Federal Deposit Insurance Corporation
    FHLB                Federal Home Loan Bank
    Guaranty            Guaranty Bank
    MBS                 mortgage-backed security
    MLR                 material loss review
    OIG                 Office of Inspector General
    OTS                 Office of Thrift Supervision
    PCA                 prompt corrective action
    TARP                Troubled Asset Relief Program




                        Material Loss Review of Guaranty Bank (OIG-11-066)                                Page i
This Page Intentionally Left Blank.
                                                                                          Audit
OIG
The Department of the Treasury
                                                                                          Report
Office of Inspector General




                        April 29, 2011

                        John E. Bowman, Acting Director
                        Office of Thrift Supervision

                        This report presents the results of our material loss review of the
                        failure of Guaranty Bank (Guaranty), of Austin, Texas, and of the
                        Office of Thrift Supervision’s (OTS) supervision of the institution.
                        OTS closed Guaranty and appointed the Federal Deposit Insurance
                        Corporation (FDIC) receiver on August 21, 2009. This review was
                        mandated by section 38(k) of the Federal Deposit Insurance Act
                        because of the magnitude of Guaranty’s estimated loss to the
                        Deposit Insurance Fund. 1 As of March 31, 2011, FDIC estimated
                        the loss at $1.3 billion. At that time, FDIC also estimated that
                        Guaranty’s failure would result in a loss of $86.3 million to its
                        Transaction Account Guarantee Program.

                        Our objectives were to determine the cause of Guaranty’s failure;
                        assess OTS’s supervision of Guaranty, including implementation of
                        the prompt corrective action (PCA) provisions of section 38; and
                        make recommendations for preventing such a loss in the future. To
                        accomplish these objectives, we reviewed the supervisory files and
                        interviewed officials at OTS and FDIC. We conducted our fieldwork
                        from October 2009 through March 2010. Appendix 1 contains a
                        more detailed description of our review objectives, scope, and
                        methodology. Appendix 2 contains background information on
                        Guaranty’s history and OTS’s assessment fees and examination
                        hours. Certain terms that are underlined when first used in this
                        report, are defined in, Safety and Soundness: Material Loss Review
                        Glossary, OIG-11-065 (April 11, 2011). That document is available
                        on the Treasury Office of Inspector General’s (OIG) website at


1
  At the time of Guaranty’s failure, section 38(k) defined a loss as material if it exceeded the greater of
$25 million or 2 percent of the institution’s total assets. Effective July 21, 2010, section 38(k) defines
a loss as material if it exceeds $200 million for calendar years 2010 and 2011, $150 million for
calendar years 2012 and 2013, and $50 million for calendar years 2014 and thereafter (with a
provision that the threshold can be raised temporarily to $75 million if certain conditions are met).


                        Material Loss Review of Guaranty Bank (OIG-11-066)                            Page 1
                       http://www.treasury.gov/about/organizational-
                       structure/ig/Pages/by-date-2011.aspx.

                       In brief, Guaranty failed primarily because of losses in its
                       nonagency mortgage-backed security (MBS) portfolio. That
                       portfolio consisted of a high concentration of California option
                       adjustable rate mortgages (ARM). Guaranty’s condition rapidly
                       worsened in 2008 with the onset of the nation’s housing crisis.

                       With respect to its supervision of Guaranty, OTS failed to recognize
                       the risks associated with the thrift’s investment strategy until
                       2008, primarily because the nonagency MBSs that Guaranty
                       bought were graded AAA by credit rating agencies. 2 From 2004
                       through 2007, both the thrift and OTS relied on the AAA ratings
                       and considered the risk of purchasing AAA-rated nonagency MBSs
                       to be minimal. As losses associated with the nonagency MBSs
                       mounted, OTS started taking enforcement actions in 2008 and
                       issued a formal cease and desist (C&D) order in April 2009. In
                       August 2009, OTS took the required PCA actions in a timely
                       manner as Guaranty’s reported capital levels fell below adequately
                       capitalized. However, these actions were unable to save the thrift.

                       In accordance with its policy, OTS conducted an internal failed
                       bank review of Guaranty and similarly concluded that the thrift’s
                       failure resulted primarily from the deterioration in its nonagency
                       MBS portfolio.

                       We are not making any new recommendation in this report, but are
                       reaffirming two recommendations made in our previous material
                       loss reviews (MLR) of OTS-regulated thrifts, where we identified
                       similar causes of failure and made similar findings regarding OTS’s
                       supervision. In a written response, OTS stated that it has
                       implemented actions for the recommendations in prior OIG MLR
                       reports and internally prepared assessments of other thrift failures.
                       OTS’s response is provided as appendix 3.




2
 Guaranty used Nationally Recognized Statistical Rating Organizations required to be registered with the
Securities and Exchange Commission, such as Moody’s Investment Service, Standard & Poor’s Rating
Services, and Fitch, Inc.


                       Material Loss Review of Guaranty Bank (OIG-11-066)                        Page 2
Causes of Guaranty’s Failure
              Guaranty failed because of large losses and significant levels of
              criticized assets in its nonagency MBSs with underlying assets
              concentrated in California and primarily consisting of option ARMs.
              As of September 2008, Guaranty sustained a $1.2 billion loss in
              value on its $3.5 billion nonagency MBS portfolio. At the time,
              criticized assets were $3 billion. Because of its losses, Guaranty
              was unable to raise sufficient capital, could not obtain (though
              conditionally approved for) Troubled Asset Relief Program (TARP)
              funding, and had Federal Home Loan Bank (FHLB) funds restricted.

              Guaranty began investing in AAA-rated, nonagency MBSs in 2004
              and ceased its residential lending operation in 2006. This strategy
              proved to be unsafe and unsound when the severe downturn in the
              real estate market began in mid-2007 and the ensuing financial
              crisis detrimentally affected the credit markets during 2008.

              Guaranty made its last purchase of AAA-rated, nonagency MBSs,
              for approximately $1.1 billion, in the third quarter of 2007, when
              there was clear evidence that the credit and real estate markets
              were starting to deteriorate. At this time, the underlying collateral
              for the nonagency MBSs was heavily concentrated (over 60
              percent) in California and consisted largely of option ARMs. As of
              December 31, 2008, over 80 percent of the loans in Guaranty’s
              nonagency MBS loan portfolio were option ARMs.

              Our review of board of director minutes prior to 2009 found no
              instance where a board member voiced an objection about the
              thrift’s nonagency MBS investments or raised concerns about the
              return on assets and equity. In fact, we did not find any significant
              discussion about the risks associated with the concentrations of
              the nonagency MBSs in California option ARMs.

              Nonagency MBSs from California accounted for approximately $2
              billion in September 2008, nearly 5 times the concentration risk
              threshold. OTS’s guidance states that examiners should be aware
              of possible concentration risk and include in the report of
              examination (ROE) any concentrations that present a supervisory
              concern, such as those that exceed 25 percent of core capital plus




              Material Loss Review of Guaranty Bank (OIG-11-066)               Page 3
                       ALLL. 3 In its 2008 report of examination, OTS stated that the thrift
                       failed to include the nonagency MBSs in its aggregate California
                       exposure, which was particularly critical from a concentration and
                       overall credit quality perspective. Although Guaranty had a
                       concentration-reporting system in place, it did not have an
                       enterprise-wide approach or management strategy to proactively
                       manage and mitigate its concentration risk.

                       In addition to the economic downturn in California, many of the
                       loans within the nonagency MBS portfolio came from two large
                       financial institutions, Washington Mutual Bank (WaMu) and
                       Countrywide Financial Corporation, that, we now know, originated
                       a significant number of poorly underwritten loans. The loan
                       origination practices by WaMu were costly to the Deposit
                       Insurance Fund in a broader sense, as demonstrated by the failure
                       of Guaranty which invested heavily in WaMu MBSs. 4

                       Guaranty’s criticized assets (consisting of adversely classified
                       assets and special mention assets) began to rapidly increase in
                       2007, principally from the nonagency MBS losses. From 2006 to
                       2007, classified assets increased by over 800 percent, from $39
                       million to $369 million, or from a little over 3 percent to 28 percent
                       of core capital plus ALLL. By September 2008, criticized assets
                       totaled $3 billion, representing 186 percent of core capital plus
                       ALLL.

                       In 2009, Guaranty could not raise capital. Guaranty was approved
                       by the Department of the Treasury for $428 million in TARP funds
                       on January 6, 2009, with the condition that the thrift obtain $400
                       million in private capital and convert $237 million in bank
                       subordinated debt to equity. Private investors, however, did not
                       provide the required capital and TARP funds were ultimately
                       denied. In addition, Guaranty had limited access to FHLB advances




3
  OTS Examination Handbook, Overview: Lending Operations and Portfolio Risk Management, Section
201, p. 201.5, (June 2005).
4
  We and the FDIC OIG performed a joint review of the causes of WaMu’s failure and the federal
supervision exercised over the institution. Our April 2010 report describes the high risk lending strategy
by WaMu. (Treasury OIG and FDIC OIG, Evaluation of Federal Regulatory Oversight of Washington
Mutual Bank, EVAL-10-002, April 9, 2010).


                       Material Loss Review of Guaranty Bank (OIG-11-066)                           Page 4
                        as FHLB moved Guaranty to restricted status. 5 The thrift
                        consequently failed.


OTS’s Supervision of Guaranty
                        OTS did not question or impose limits on Guaranty’s purchases of
                        nonagency MBSs. OTS relied on the AAA rating of the nonagency
                        MBS portfolio and the strength of California’s real estate market.
                        Beginning in 2008, as Guaranty’s condition deteriorated, OTS
                        responded primarily with matters requiring board attention (MRBA)
                        and corrective action recommendations. These actions, however,
                        were unable to save the thrift. We determined that OTS complied
                        with PCA as Guaranty’s capital level fell below adequately
                        capitalized.

                        Table 1 summarizes the results of OTS’s safety and soundness and
                        limited examinations of Guaranty from 2004 until the thrift’s
                        closure in 2009, and provides the dates of OTS enforcement
                        actions against Guaranty. 6

      Table 1. Summary of OTS’s Guaranty Bank Examinations and Enforcement Actions
                                                              Examination Results
      Examination Total                            No.        No. of
      Start Date    assets          CAMELS         of         recommendations/
      and Type      (in billions)   rating         MRBAs      corrective actions    Enforcement actions
      5/17/2004 $17.0               N/A                                              None
      (limited)                                    0          0
      6/21/2004 $17.0               N/A                                             None
      (limited)                                     0         0
      8/2/2004     $16.7            2/223211                                        C&D order issued to
      (full-scope)                                  5         4                     correct compliance
                                                                                    management problems
                                                                                    at Guaranty Residential
                                                                                    Lending, a subsidiary
                                                                                    12/22/2004


5
  Guaranty’s FHLB advances were primarily secured by the thrift’s non-agency MBSs which posed a
collateral risk. On July 2, 2009, FHLB moved Guaranty to restricted lending status thereby limiting its
access to FHLB advances. Institutions with restricted lending status must obtain prior approval from an
FHLB senior credit officer for any new borrowings, and the institution must repay the funds within 30
days.
6
  OTS conducted its examinations and performed offsite monitoring of Guaranty in accordance with the
timeframes prescribed in the OTS Examination Handbook.


                        Material Loss Review of Guaranty Bank (OIG-11-066)                           Page 5
Table 1. Summary of OTS’s Guaranty Bank Examinations and Enforcement Actions
                                                         Examination Results
Examination     Total                         No.        No. of
Start Date      assets          CAMELS        of         recommendations/
and Type        (in billions)   rating        MRBAs      corrective actions    Enforcement actions
6/20/2005      $15.6            2/223211                                       None
(full-scope)                                  3          3
7/10/2006      $17.6            2/212211       0         0                     None
(full-scope)
7/2/2007       $15.7            2/222211      4          7                     None
(full-scope)
4/7/2008       $16.7            3/332321       1         0                     Notice of ratings
(limited)                                                                      downgrade

                                                                                Board resolution
                                                                                6/16/2008
9/2/2008       $15.9            4/443432      12         12                    Supervisory directive
(full-scope)                                                                   1/21/2009
2/20/2009      $15.1            4/443432       0         0                      Notice of ratings
(limited)                                                                       downgrade

                                                                               Notice of troubled
                                                                               condition 2/20/2009

                                                                                C&D order
                                                                                4/6/2009
4/27/2009       $14.4           N/A           0          0                     C&D order remains in
(limited)                                                                      effect
5/4/2009       $15.1            5/555555      0          0                     C&D order remains in
 (limited)                                                                     effect
5/5/2009       $15.1            5/555543      0          0                     Notice of ratings
 (limited)                                                                     downgrade

                                                                               Supervisory directives
                                                                               5/19/2009, 5/27/2009,
                                                                               6/18/2009, 7/10/2009

                                                                               Notice of objection to
                                                                               capital plan 6/9/2009

                                                                               PCA notice
                                                                               7/10/2009
7/15/2009      $14.4            5/555555      0          0                     Notice of ratings
(limited)                                                                      downgrade

                                                                               PCA directive issued
                                                                               8/19/2009
Source: OIG analysis of OTS data.




                   Material Loss Review of Guaranty Bank (OIG-11-066)                              Page 6
                       OTS Did Not Question Guaranty’s Overreliance on Credit Ratings to
                       Assess Its Nonagency MBS Portfolio Risk

                       Beginning in 2004, Guaranty changed its business strategy and
                       increased its purchases of AAA-rated, nonagency MBSs. OTS’s
                       capital markets examiners reported no items of concern in 2005
                       and 2006 with the nonagency MBS portfolio or with management’s
                       reporting on it. 7 OTS continued to report in 2007 that credit risk
                       with Guaranty’s nonagency MBS portfolio was minimal. In an
                       interview, OTS capital markets examiners told us that they trusted
                       the ratings of these securities as assigned by the ratings agencies.

                       Until the deterioration of what were previously AAA-rated
                       nonagency MBSs caused thrifts to experience portfolio losses, OTS
                       guidance had given considerable weight to the ratings assigned by
                       ratings agencies. 8 Upon observing the losses Guaranty and other
                       thrifts experienced in their investment portfolios, OTS updated its
                       examination handbook in January 2010 to instruct examiners on
                       the need to better review thrift investment decisions and ensure
                       that thrifts do the necessary due diligence when buying securities.
                       OTS said in its 2010 guidance that neither associations nor
                       examiners should rely solely on ratings when assessing the credit
                       risk of investment securities.

                       We believe that it is too soon to tell whether this updated guidance
                       is effective. Its success at preventing or mitigating conditions such
                       as those that led to Guaranty’s failure and the resulting loss to the
                       Deposit Insurance Fund depends on its consistent and faithful
                       implementation by examiners and assertive regulatory intervention,
                       in both good times and bad, when unsound and unsafe practices
                       are found.




7
  OTS’s capital markets examiners assess investment portfolio strategy, policies, practices, position,
and risk, as carried out in individual thrifts. These examiners review credit, liquidity, and operational
risks resulting from an institution’s participation in risk markets.
8
  OTS Examination Handbook, Asset-Backed Securitization, Section 221, p. 221.12, (September 2003).


                       Material Loss Review of Guaranty Bank (OIG-11-066)                          Page 7
                       OTS Took Enforcement Action and PCA as Guaranty's Financial
                       Condition Deteriorated

                       As Guaranty’s financial condition deteriorated in 2008 and 2009,
                       OTS responded by taking several enforcement actions. These
                       actions included a 2008 board resolution, four supervisory
                       directives in 2009, an April 2009 C&D order, and an August 2009
                       PCA directive. We concluded that OTS took the required PCA
                       actions in a timely manner as Guaranty’s reported capital levels fell
                       below adequately capitalized. Ultimately, however, these actions
                       were unable to save the thrift.

                       The purpose of PCA is to resolve problems of insured depository
                       institutions with the least possible long-term loss to the Deposit
                       Insurance Fund. PCA requires federal banking agencies to take
                       certain actions when an institution’s capital drops to certain levels.
                       PCA also gives regulators flexibility to supervise institutions based
                       on criteria other than capital levels to help reduce deposit insurance
                       losses caused by unsafe and unsound practices.

                       OTS appropriately used its authority under PCA and took the
                       following key actions related to Guaranty:

                       •   Concurrent with the C&D order dated April 6, 2009, Guaranty
                           notified OTS that it would not be able to meet the required
                           capital levels. The thrift fell to adequately capitalized status for
                           PCA purposes as of March 31, 2009. OTS directed Guaranty to
                           file a capital strategic plan by May 21, 2009. 9 Guaranty
                           submitted a 2009-2010 capital strategic plan by that date. On
                           June 9, 2009, OTS issued a notice of objection to the capital
                           strategic plan, citing the plan’s failure to meet the requirements
                           of the C&D order and the plan’s failure to demonstrate that
                           Guaranty management could realistically address the problems
                           facing the thrift and return it to a sound financial condition.

                       •   On July 10, 2009, OTS issued a PCA notice to Guaranty. The
                           PCA notice alerted the thrift that it was considered critically

9
  The plan required that Guaranty detail the actions to be taken, with specific timeframes, to achieve
either a merger with or acquisition by another federally insured depository institution or holding
company, or voluntary liquidation by filing an appropriate application with the OTS in conformity with
federal laws and regulations.


                       Material Loss Review of Guaranty Bank (OIG-11-066)                         Page 8
                          undercapitalized and required it to submit a capital restoration
                          plan by July 20, 2009. The PCA notice also contained other
                          relevant PCA restrictions.

                      •   On July 23, 2009, Guaranty notified OTS that it did not have a
                          viable capital restoration plan. The substantial asset write-
                          downs resulting from the amended March 31, 2009, thrift
                          financial report effectively shut off the possibility of applying for
                          open bank assistance, 10 and private investors would not
                          commit to a capital infusion.

                      •   On August 17, 2009, OTS issued a notice of intent to issue a
                          PCA directive to Guaranty notifying the thrift of its critically
                          undercapitalized status and failure to submit an acceptable
                          capital restoration plan. Two days later, on August 19, 2009,
                          OTS issued the PCA directive, and Guaranty’s board consented
                          to the appointment of a conservator or receiver. OTS closed
                          Guaranty and appointed FDIC as receiver on August 21, 2009.

                      OTS’s Internal Failed Bank Review

                      In accordance with its policy, OTS completed an internal failed
                      bank review of Guaranty and concluded similar to our material loss
                      review that the thrift’s failure resulted primarily from the
                      deterioration in its nonagency MBS portfolio. According to the
                      internal review, neither OTS nor thrift management identified the
                      high risk of the nonagency MBS. OTS examination reports also did
                      not include corrective action recommendations to reduce
                      concentrations until 2008. In addition, the review found that thrift
                      management did not have a consistent business strategy.

                      Based on the findings in the internal failed bank review, OTS
                      should consider establishing a rotation policy for examiners-in-
                      charge. OTS found that one examiner was assigned as an
                      examiner-in-charge for three consecutive examination cycles, and
                      this same individual led the asset quality review during the 2004
                      and 2008 examinations. OTS stated in its internal review that
                      rotation of examiners-in-charge provides OTS with different
                      perspectives and strengthens supervision.

10
 Open bank assistance is a resolution method used by FDIC to provide a direct loan, an assisted
merger, or a purchase of assets for an insured bank that is in danger of failing.


                      Material Loss Review of Guaranty Bank (OIG-11-066)                          Page 9
                      The internal review made recommendations to OTS to (1) enhance
                      the capital markets education of examiners and supervisory staff,
                      (2) implement examination procedures for investments, and
                      (3) consider an examiner-in-charge rotation policy.

Recommendations

                      We are not making any new recommendations in this report, but
                      we are reaffirming recommendations made in previous MLR reports
                      of OTS-regulated thrifts regarding concentration limits.

                      In our May 2010 MLR report on Peoples Community Bank, 11 we
                      reported that the thrift failed primarily because of large
                      concentrations in higher risk commercial real estate loans that
                      resulted in large loan losses that led to insufficient capital. We
                      recommended that OTS work with its regulatory partners to
                      determine whether to propose legislation and/or change regulatory
                      guidance to establish limits or other controls for concentrations
                      that pose an unacceptable safety and soundness risk, and
                      determine an appropriate range of examiner response to high-risk
                      concentrations. Guaranty’s nonagency MSB concentrations also
                      resulted in significant losses that led to the failure of the thrift.
                      Therefore, we reaffirm the recommendation made in this MLR
                      report.

                      In our June 2009 MLR report on Downey Savings and Loan, FA, 12
                      we reported that a primary cause of the thrift’s failure was the its
                      high concentrations in single-family residential loans which included
                      concentrations in option ARMs, reduced documentation loans,
                      subprime loans, and loans with layered risk. Also in June 2009, in
                      our MLR report for PFF Bank and Trust, 13 we reported that a
                      primary cause of failure was its high concentration in construction
                      and land loans and related credit losses. In these two reports, we
                      recommended that OTS direct examiners to closely review and

11
   Safety and Soundness: Material Loss Review of Peoples Community Bank, OIG-10-040 (May 27,
2010). The review of Peoples Community Bank was performed by Mayer Hoffman McCann P.C., an
independent certified public accounting firm, under the supervision of OIG.
12
   Safety and Soundness: Material Loss Review of Downey Savings and Loan, FA, OIG-09-039 (June
15, 2009).
13
   Safety and Soundness: Material Loss Review of PFF Bank and Trust, OIG-09-038 (June 12, 2009).


                      Material Loss Review of Guaranty Bank (OIG-11-066)                    Page 10
monitor thrifts that refuse to establish appropriate limits for
concentrations that pose significant risk and pursue corrective
action when concentration limits are not reasonable. We also
recommended in the Downey Savings and Loan MLR report that
OTS assess the need for more guidance for examiners on
determining materiality of concentrations and determining
appropriate examiner response to high-risk concentrations. The
failure of Guaranty was another case in which a thrift failed
primarily because of concentrations in its portfolio that warranted a
strong supervisory response by OTS. Therefore, we also reaffirm
the recommendations made in these two MLR reports.

We also note that OTS updated its examination handbook in
January 2010 to instruct examiners on the need to better review
thrift investment decisions and ensure that thrifts do the necessary
due diligence when buying securities. In this regard, OTS guidance
cautions both thrifts and examiners not to rely solely on credit
rating agencies when assessing the credit risk of investment
securities. As stated earlier, the effectiveness of this new guidance
depends on its consistent and faithful implementation by examiners
and assertive regulatory intervention when unsound and unsafe
practices are found.

With respect to the OTS internal failed bank review
recommendation that OTS consider a rotation policy for examiners-
in-charge, we believe that is a prudent action. However, given that
pursuant to the Dodd-Frank Wall Street Reform and Consumer
Protection Act of 2010, the functions of OTS are to be transferred
to other federal banking agencies in July 2011, we are not making
a specific recommendation to OTS regarding an examiner-in-charge
rotation policy in this report.




Material Loss Review of Guaranty Bank (OIG-11-066)             Page 11
                                 ******

We appreciate the cooperation and courtesies extended to our staff
during the audit. If you wish to discuss the report, you may
contact me at (617) 223-8640 or Sharon Torosian, Audit Manager,
at (617) 223-8642. Major contributors to this report are listed in
appendix 4.


/s/
Donald P. Benson
Audit Director




Material Loss Review of Guaranty Bank (OIG-11-066)          Page 12
                       Appendix 1
                       Objectives, Scope, and Methodology




                       We conducted this material loss review of Guaranty Bank
                       (Guaranty), of Austin, Texas, in response to our mandate under
                       section 38(k) of the Federal Deposit Insurance Act. 14 This section
                       provides that if the Deposit Insurance Fund incurs a material loss
                       with respect to an insured depository institution, the inspector
                       general for the appropriate federal banking agency is to prepare a
                       report to the agency that

                       •   ascertains why the institution’s problems resulted in a material
                           loss to the insurance fund;
                       •   reviews the agency’s supervision of the institution, including its
                           implementation of the prompt corrective action provisions of
                           section 38; and
                       •   makes recommendations for preventing any such loss in the
                           future.

                       At the time of Guaranty’s failure on August 21, 2009, section
                       38(k) defined a loss as material if it exceeds the greater of
                       $25 million or 2 percent of the institution’s total assets. We
                       initiated a material loss review of Guaranty based on the loss
                       estimate by the Federal Deposit Insurance Corporation (FDIC). As
                       of March 31, 2011, FDIC estimated that the loss to the Deposit
                       Insurance Fund from Guaranty’s failure would be $1.3 billion. 15

                       Our objectives were to determine the causes of Guaranty’s failure
                       and assess the Office of Thrift Supervision’s (OTS) supervision of
                       the thrift. To accomplish our review, we conducted fieldwork at
                       OTS’s headquarters in Washington, D.C.; OTS’s Western Region
                       office in Irving, Texas; Guaranty’s former administrative offices in
                       Dallas, Texas; and FDIC’s Division of Resolutions and Receiverships
                       in Dallas, Texas. We also interviewed officials from FDIC’s Division
                       of Supervision and Consumer Protection in Austin and Dallas,
                       Texas. We conducted our fieldwork from October 2009 through
                       March 2010.


14
 12 U.S.C. § 1831o(k).
15
 The original loss estimate was $3 billion at closing. FDIC decreased this amount to $1.3 billion as of
March 31, 2011, based on revised estimates.




                       Material Loss Review of Guaranty Bank (OIG-11-066)                        Page 13
Appendix 1
Objectives, Scope, and Methodology




To assess the adequacy of OTS’s supervision of Guaranty, we
performed the following work:

•   We reviewed OTS’s supervisory files and records for Guaranty
    from 2004 through 2009. We analyzed examination reports,
    supporting workpapers, and related supervisory and
    enforcement correspondence. We performed these analyses to
    gain an understanding of the problems identified, the approach
    and methodology OTS used to assess the thrift’s condition, and
    the regulatory action OTS used to compel thrift management to
    address deficient conditions.

•   We interviewed and discussed various aspects of the
    supervision of Guaranty with OTS officials and examiners to
    obtain their perspectives on the thrift’s condition and the scope
    of the examinations.

•   We also interviewed FDIC officials who were responsible for
    monitoring Guaranty for federal deposit insurance purposes.

•   We interviewed personnel from FDIC’s Division of Resolutions
    and Receiverships who were involved in the receivership
    process, which was conducted after Guaranty’s closure and
    appointment of a receiver.

•   We assessed OTS’s actions based on its internal guidance and
    requirements of the Federal Deposit Insurance Act. (12 U.S.C. §
    1811 et seq.).

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Material Loss Review of Guaranty Bank (OIG-11-066)             Page 14
Appendix 2
Background




History of Guaranty

Guaranty Bank (Guaranty), headquartered in Austin, Texas, was a
federally chartered savings bank that began operations in 1988.
Guaranty’s origins date back to 1938, when the original charter
was approved for Guaranty Building and Loan in Galveston, Texas.
In late 1988, Temple-Inland, Inc. (Temple-Inland), formed Guaranty
by acquiring three institutions, including what was then Guaranty
Federal Savings and Loan Association. Guaranty became a federally
chartered savings and loan association after acquiring several failed
thrifts and receiving government assistance.

For the next two decades Guaranty grew, making more than 30
acquisitions and entering into the California market in the late
1990s. Starting in 1988, Guaranty’s primary business lines were
single-family mortgage, single-family construction, commercial real
estate, and commercial secured lending.

In 2004, Guaranty began to change its business strategy by
increasing purchases of AAA-rated, nonagency mortgage-backed
securities (MBS). The change of strategy also included plans to
restructure Guaranty’s mortgage banking subsidiary, Guaranty
Residential Lending, Inc. (GRL), by closing many of the retail loan
origination offices and selling the third-party mortgage servicing
portfolio. In April 2005, the mortgage origination business of GRL
was transferred to the thrift; by January 2006, Guaranty ceased
mortgage lending operations, ending the thrift’s residential
mortgage origination business. Guaranty continued expanding its
purchases of nonagency MBSs into 2007 to satisfy the qualified
thrift lending requirements, while developing significant
concentrations and risk exposure in California.

Under pressure from a major shareholder, Temple-Inland announced
in February 2007 that it would spin off Guaranty as a stand-alone
unit, rather than operating it as a subsidiary. Guaranty’s spin-off
was completed in December 2007 when Guaranty Financial Group,
Inc., became the new holding company for Guaranty. This spin-off
resulted in the loss of capital support from Temple-Inland.




Material Loss Review of Guaranty Bank (OIG-11-066)            Page 15
Appendix 2
Background




Guaranty was deemed critically undercapitalized in July 2009.
Because of Guaranty’s continuing unsafe and unsound condition
and its poor prospects for raising new capital, the Office of Thrift
Supervision (OTS) appointed the Federal Deposit Insurance
Corporation as receiver for Guaranty on August 21, 2009. At the
time of its failure, Guaranty had 162 branch offices in Texas and
California and over $14 billion in total assets.

OTS Assessments Paid by Guaranty

OTS funds its operations in part through semiannual assessments
on thrifts. OTS determines each institution’s assessment by adding
together three components reflecting the size, condition, and
complexity of an institution. OTS computes the size component by
multiplying an institution’s total assets as reported on its thrift
financial report by the applicable assessment rate. The condition
component is a percentage of the size component and is imposed
on institutions that have a 3, 4, or 5 CAMELS composite rating.
OTS imposes a complexity component if (1) a thrift administers
more than $1 billion in trust assets; (2) the outstanding balance of
assets fully or partially covered by recourse obligations or direct
credit substitutes exceeds $1 billion; or (3) the thrift services over
$1 billion of loans for others. OTS calculates the complexity
component by multiplying set rates by the amounts by which an
association exceeds each threshold. Table 2 shows the
assessments that Guaranty paid from 2004 through 2009.

Table 2: Assessments Paid by Guaranty to OTS, 2004—2009
 Billing Period            Exam Rating        Amount Paid
 1/1/2004–6/30/2004                  2               $1,230,887
 7/1/2004–12/31/2004                 2                1,209,923
 1/1/2005–6/30/2005                  2                1,216,144
 7/1/2005–12/31/2005                 2                1,069,377
 1/1/2006–6/30/2006                  2                1,163,320
 7/1/2006–12/31/2006                 2                1,220,076
 1/1/2007–6/30/2007                  2                1,176,012
 7/1/2007–12/31/2007                 2                1,138,591
 1/1/2008–6/30/2008                  2                1,218,736
 7/1/2008–12/31/2008                 3                1,810,841
 1/1/2009–6/30/2009                  3                1,859,475
 7/1/2009–12/31/2009                 5                2,213,640
Source: OTS Electronic Continuing Examination Folder system.




Material Loss Review of Guaranty Bank (OIG-11-066)                Page 16
Appendix 2
Background




Number of OTS Staff Hours Spent Examining Guaranty

Table 3 shows the number of OTS staff hours spent examining
Guaranty from 2004 through 2009.

Table 3: Number of OTS Hours Spent Examining Guaranty, 2004–2009
 Examination Start Date Exam Type        Number of Examination Hours
 5/17/2004                  Limited                              228
 6/21/2004                  Limited                              177
 8/2/2004                   Full                               2,980
 6/20/2005                  Full                               3,357
 2/6/2006                   Limited                              274
 7/10/2006                  Full                               1,920
 4/9/2007                   Limited                              291
 7/2/2007                   Full                               2,274
 10/15/2007                 Limited                              412
 4/7/2008                   Limited                              437
 9/2/2008                   Full                               2,532
 5/4/2009                   Limited                            1,055
 7/15/2009                  Limited                                6
Source: OTS Electronic Continuing Examination Folder system.




Material Loss Review of Guaranty Bank (OIG-11-066)                Page 17
Appendix 3
Management Response




Material Loss Review of Guaranty Bank (OIG-11-066)   Page 18
Appendix 4
Major Contributors To This Report




Boston Audit Office

Sharon Torosian, Audit Manager
Timothy Cargill, Auditor-in-Charge
Jeanne DeGagne, Auditor-in-Charge
Kaytlin Kovach, Auditor

Washington, D.C.

Katherine Johnson, Referencer




Material Loss Review of Guaranty Bank (OIG-11-066)   Page 19
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of Thrift Supervision

    Acting Director
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

Federal Deposit Insurance Corporation

    Chairman
    Inspector General

U. S. Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U. S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

U. S. Government Accountability Office

    Comptroller General of the United States




Material Loss Review of Guaranty Bank (OIG-11-066)        Page 20
